GR-50-98-013
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 
GRANTS TO THE FLINT POLICE DEPARTMENT
FLINT, MICHIGAN 
Award Number 95-CC-WX-0340
Audit Report Number GR-50-98-013
 
July 22, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grant
awards to the Flint, Michigan Police Department by the U.S. Department of Justice (DOJ),
Office of Community Oriented Policing Services (COPS). The Flint Police Department (FPD)
received $1,725,000 to hire or rehire 23 additional sworn police officers under the
Accelerated Hiring, Education, and Deployment (AHEAD) Program and the Universal Hiring
Program (UHP). The purpose of the additional officers is to enhance community policing
efforts.
In brief, our audit revealed that:

 Costs charged to the AHEAD and UHP grants were not in accordance with grant
  requirements. This occurred because FPD did not maintain the minimum number of locally
  funded sworn officers. As a result, we questioned costs in the amount of $222,681. 


 Submission of required reports was not in accordance with grant requirements.
  Specifically, Officer Progress Reports and the Annual Department Report were not submitted
  to COPS, and the Department Initial Report and Financial Status Reports were not submitted
  timely. 

#####